Case: 21-50108

Document: 00515946128

Page: 1

Date Filed: 07/21/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

July 21, 2021

No. 21-50108
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Emmanuel Granados,
Defendant—Appellant.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 7:20-CR-246-1
Before Southwick, Graves, and Oldham, Circuit Judges.
Per Curiam:*
Emmanuel Granados pleaded guilty to possession of a firearm after a
felony conviction. Relying on the analysis set forth in United States v. Lopez,
514 U.S. 549 (1995), Granados argues that 18 U.S.C. § 922(g)(1), the statute
of conviction, exceeds the scope of Congress’s power under the Commerce

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 21-50108

Document: 00515946128

Page: 2

Date Filed: 07/21/2021

No. 21-50108

Clause and is thus unconstitutional. He concedes that his claim is foreclosed
by circuit precedent, and he raises the issue to preserve it for further review.
The Government has filed an unopposed motion for summary affirmance and
an alternative request for an extension of time to file its brief.
Summary affirmance is proper if “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as
to the outcome of the case.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158,
1162 (5th Cir. 1969). Granados’s instant challenge to the constitutionality of
§ 922(g)(1) is foreclosed. See United States v. Alcantar, 733 F.3d 143, 145–46
(5th Cir. 2013); United States v. Daugherty, 264 F.3d 513, 518 (5th Cir. 2001);
United States v. De Leon, 170 F.3d 494, 499 (5th Cir. 1999).
Thus, the Government's unopposed motion for summary affirmance
is GRANTED. The Government's alternative motion for an extension of
time to file an appellate brief is DENIED. The district court's judgment is
AFFIRMED.

2

